December 30, 2002

MEMORANDUM
FOR:           Dawn Liberi, Mission Director, USAID/Nigeria

FROM:          Nancy Toolan, Acting-RIG/Dakar /s/

SUBJECT:       Risk Assessment of USAID-Financed Assistance to Nigeria
               (Report No. 7-620-03-002-S)

This report presents the results of our Risk Assessment of USAID-Financed
Assistance to Nigeria. This is not an audit report and does not contain any
recommendations for your action. In finalizing this report, we considered
management’s comments on our draft report and included them in Appendix II of
the final report.

I appreciate the cooperation and courtesy extended to my staff during the survey.




                                                                                    1
Background   Nigeria is in the midst of a difficult political transition after 40 years of ineffective
             and often corrupt civilian regimes and military dictatorships. With the May 1999
             transition from a military to an elected civilian government, Nigeria took a major
             political step. The Government of the Federal Republic of Nigeria (GFRN)
             continues to rebuild government and social institutions, as well as attempting to
             revitalize its economy. The political and economic transition has been difficult,
             and the challenges ahead are significant. Nigeria's development is hampered by
             an over-dependence on oil (about 46 percent of its gross domestic product and 85
             percent of the country's foreign exchange earnings), limited foreign and domestic
             investment, ineffective economic management, high population growth rate, an
             overburdened and ineffective education system, ethnic and religious conflict, a
             history of weak governance and corruption and an increasing HIV/AIDS
             prevalence rate.

             Since the democratic transition, USAID’s assistance to Nigeria has evolved from
             a small limited assistance program focused on non-governmental organization
             projects in health and governance to the largest USAID program in sub-Saharan
             Africa. The USAID transition strategy, approved in 1999, was originally intended
             to end in December 2001, but has been extended until December 2003. This
             strategy addresses the key elements of a poverty reduction program: democratic
             governance, economic management and agriculture, basic education and youth
             workforce development, health, and infrastructure and energy. The Mission's
             accomplishments in 2001 have primarily focused on strengthening key
             governance institutions and improving the delivery of social services. The
             Mission supports four Strategic Objectives (SOs) and one Special Objective
             (SPO). USAID assistance for these objectives since fiscal year (FY) 1999 is
             shown in the following table.

                                                                 Millions of Dollars
                         Strategic Objective          FY99        FY00       FY01        FY02
                                                      Actual     Actual Estimate        Request
                      Sustaining the Transition
             SO1      to Democratic Civilian           $ 10.9     $ 10.4       $ 17.8      $ 16.4
                      Governance
                      Economic Reform and
             SO2                                           3.5      10.0         21.1        18.3
                      Agricultural Growth
             SO3      Education Reform                                5.5         8.2         7.6
                      Health and Child
             SO4                                           9.3      19.0         32.3        36.7
                      Survival
                          Special Objective
             SPO1     Infrastructure and Energy                     12.6          0.4
                             Total             $ 23.7      $ 57.5              $ 79.8      $ 79.0
             Source: USAID’s Congressional Budget Justification



                                                                                                    2
During 2001 the Mission completed a comprehensive Performance Monitoring
Plan (PMP) for each of the sectors. The PMP is required by the Automated
Directives System (ADS) 201.3.4, and forms the basis upon which the Mission
will manage for results and monitor the impact of programs. It is a tool used by
USAID operating units to plan, document and manage the collection of
performance data. Per ADS 201.3.4.13, the PMP should contain, at a minimum:
(1) a detailed definition of each performance indicator, (2) the source, method,
frequency and schedule of data collection; and (3) the office, team or individual
responsible for ensuring data are available on schedule.

In 2001, the OIG conducted an audit of USAID/Nigeria's operating expenses for
FY2000. The audit report provided recommendations to strengthen and improve
management controls over payroll disbursement for Foreign Service National
employees, non-expendable property, monetary advances, mission vehicles, and
the petty cash account. The audit report also discussed a number of risk factors
which increase the vulnerability of USAID/Nigeria's large rapidly expanding
program, namely:

   •   The relocation of the Mission from Lagos to Abuja;
   •   A substantial increase in the size of Mission staffing, with new employees
       to be hired in Abuja;
   •   A significant increase in the Mission's operating and program budget; and
   •   The remote location of the USAID/Nigeria’s Mission's Accounting Station
       at USAID/Ghana.

The Office of the Regional Inspector General in Dakar conducted this survey to
obtain an overview of USAID/Nigeria programs, and to assess the risk exposure
of activities funded under the SOs and three functional offices. The General
Accounting Office (GAO) has stated in the Standards for Internal Control in the
Federal Government that internal controls are an integral component of an
organization’s management. They should provide reasonable assurance that the
following objectives are being met: effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and
regulations. Internal controls consist of five interrelated components, one of
which is risk assessment. GAO has stated that internal control should provide for
an assessment of the risks the agency faces from both external and internal
sources. This survey focused on the risk assessment component of internal
controls. The GAO standards note that the specific risk analysis methodology
used can vary because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning levels of risk. Appendix I describes in
detail our scope and methodology.




                                                                                    3
Discussion   USAID/Nigeria programs support four strategic objectives (SOs): Sustaining the
             Transition to Democratic Civilian Governance; Economic Reform and Agricultural
             Growth; Education Reform; and Health and Child Survival. We assessed the risk
             associated with each of these objectives, as well as for three functional offices that
             directly impact the operation of these programs – the Program and Project
             Development Office (PPDO), the Executive Office, and the Controller’s Office.
             Our risk assessment focused on activities and functions receiving funding in
             Fiscal Year (FY) 2002; for that reason, we did not perform a risk assessment for
             the Special Objective for infrastructure and energy. Our assessment for each
             objective and functional office area is described in the following pages.




                                                                                                 4
                  Function Description                      Risk Exposure
SO1 – Sustaining the Transition to Democratic                    High
Civilian Governance: Strengthen rule of law, human
rights, transparent governance, credible political and
electoral processes, and promote politically active civil
society.
                            Risk Assessment Factors
• USAID/Nigeria is providing assistance under a transition strategy until
    December 2003.

•   Although completed and submitted on time, USAID/Nigeria’s Performance
    Monitoring Plan (PMP) is considered in transition as the team struggles to
    refine program result indicators through experience and experiments.

•   The SO1 team is comprised of an experienced U.S. direct hire, two highly
    qualified U.S. personal services contractor staff, and several competent
    Foreign Service National staff, who, however, lack experience in USAID
    procedures and processes.

•   The FY2002 funding level is $16.4 million, ranking third of the four SOs.

•   The absence of a Contracting Officer in Abuja until recently, coupled with
    the Mission Accounting Station located in Accra, Ghana, created a backlog
    in expending obligated pipelines.

•   The new civilian Government of the Federal Republic of Nigeria (GFRN) is
    grappling with rebuilding civil society and institutions after 15 years of
    military dictatorship.

•   The political will of the GFRN to undertake reform is good but uncertainties
    remain, due to continued incidents of political violence and disputes, and a
    continuing societal presence by the military.

•   The lack of strong social and government institutions has created difficulties
    in establishing reliable program indicators, and the SO teams continue to
    develop these measures.

•   The Chief of Party for a significant implementing partner has left Nigeria for
    an indefinite period of time due to illness, leaving a key vacancy in the
    organization.

•   The Mission’s Federal Managers’ Financial Integrity Act (FMFIA) review
    did not disclose material weaknesses in this area, although the backlog in
    obligating funds might cause inefficiencies in program implementation.



                                                                                 5
The overall vulnerability to failure for SO1 has been assessed as high. Although
the Mission and its implementing partners are dedicated to the refinement and
attainment of the intermediate results, outside factors beyond their control
increase the exposure to risk. These risks are due largely to the continued social
and political strife between ethnic and religious groups that can quickly escalate,
coupled with weak and long neglected socio-political institutions that cannot
effectively mitigate the conflicts. Additionally, there are uncertainties underlying
the timing of the upcoming national elections and whether or not they will result
in a successful transition from the first civilian democratic government in fifteen
years to the next. The vulnerabilities of the Mission's other SOs are linked to this
SO, and their success will depend largely on the success or failure of SO1.

To track progress made in achieving this SO, three intermediate results have been
established. The first intermediate result is that Nigerian government institutions
demonstrate increased transparency and responsiveness. The SO team is still
grappling with the selection and refinement of appropriate indicators to measure
this result. Experience with selected indicators suggests that outputs are either
difficult to measure or require additional qualitative assessment to determine if
they contain the desired attributes. Three indicators to measure intermediate
results in the Legislature, the Judiciary and the Court System have each been
modified, but a fourth indicator for the Executive branch has yet to be determined.

The second intermediate result is establishing the foundation for a fair and
competitive electoral system. A major concern regarding this result is that a key
implementing partner, the International Foundation for Electoral Systems, needs
immediate staffing to replace its Chief of Party. The previous Chief of Party has
returned to the United States due to illness and is not expected to return before the
campaign for the upcoming national elections begins. Otherwise, indicators for
this result seem clear and outputs reasonably measurable.

The third intermediate result is increased participation by civil society in conflict
management, public deliberations and oversight of the government. Indicators for
this result have been less easy to define and outputs are less measurable. For
example, one indicator for this result is measuring the number of conflict
management networks and forums established. This measure may provide an
indication of the extent of civilian society participation in conflict resolution, but
does not necessarily measure the effectiveness of that participation. This result
has also been difficult to manage because of its highly political nature. Nigeria is
a large complex country comprised of 36 states, with regional, ethnic and
religious differences. Many violent conflicts arise from these differences,
exacerbated by land disputes and youth/political violence. The administrative
structure of the democratic government institutions is still in repair and the
concept of oversight of the government by civil society might be premature.




                                                                                     6
                  Function Description                     Risk Exposure
 SO2 - Economic Reform and Agricultural Growth:               Moderate
 Strengthen institutional capacity for economic reform
 and enhance capacity to revive agricultural growth.
                              Risk Assessment Factors
 • SO2 team was the first USAID/Nigeria team to return after the civilian
     government took power.

 •   SO2 team is comprised of experienced and well-trained specialists in macro-
     and micro-economics, as well as business development experts.

 •   The SO2 team has been working closely with the economic, agriculture,
     energy and infrastructure sectors of the Nigerian governments, including the
     Economic Policy Coordinating Committee chaired by the Vice President of
     GFRN.

 •   With a FY2002 planned funding level of $18.3 million, SO2 is the second
     largest commitment of Mission’s program funds.

 •   The SO2 team has organized its strategy into manageable themes, with
     distinct quantitatively measurable result indicators.

 •   Some SO2 projects are implemented through inter-agency agreements with
     other U.S. government agencies.

 •   Measurable results have been achieved in agriculture and economic projects,
     such as the restructuring of the Nigerian Electrical and Power Authority for
     privatization.

 •   In some projects, it is still difficult to establish a direct causal link between
     USAID efforts and intended results.

 •   The Mission’s FMFIA review did not disclose material weaknesses in this
     area.


This strategic objective is organized under themes that are manageable and for
which measurable indicators can be developed – economic reform and
agricultural growth. For example, indicators for measuring economic growth
include the number of inquiries on investment opportunities, the number of key
policy reform papers presented for adoption by Nigerian Federal Executive
Council and the number of companies readied for privatization. Indicators for
measuring growth in the agricultural sector include the number of improved
agricultural technologies extended to farmers and the number of additional retail
outlets distributing fertilizer.



                                                                                         7
The success of this strategic objective is largely dependent on the success of SO1.
If there is a successful transition from the current democratic civilian GFRN to
the next, this objective is more likely to be achieved.

However, some SO2 projects are implemented through interagency agreements
with other U.S. government entities, including the Departments of Commerce,
Agriculture, Transportation and Energy. Under these agreements, USAID
provides funding and monitoring while the agencies provide the expertise, such as
upgrading the aviation system. However, some of these agencies, such as the
Department of Transportation, do not maintain an ongoing presence in Nigeria,
and only send staff periodically to directly manage or supervise the projects. This
creates opportunities where interagency agreement funds, especially with regard
to non-U.S. government personnel, might not always be fully accountable for or
used for eligible expenditures.




                                                                                  8
                  Function Description                       Risk Exposure
 SO3 - Education Reform: Develop the foundation                Moderate
 for educational reform through policy action and
 literacy improvement and workforce development
 activities.
                              Risk Assessment Factors
 • The SO3 team is led by experienced staff and is well poised to meet upcoming
      challenges.

 •   Currently there are two program manager vacancies that will have to be filled
     as the education programs reach maturity.

 •   The FY2002 funding level is $7.6 million, less than 10 percent of the total
     program funding.

 •   As with other strategic objectives, baseline data will need to be developed due
     to the unreliability of Nigerian government statistics, according to the SO team.

 •   A data quality assessment is scheduled to be completed in September 2002.

 •   Preliminary indicators are in place and an assessment of the indicators is
     scheduled to be completed in November 2002.

 •   The principal cooperative agreement to develop broadcast material for the
     school year beginning in September 2001 is progressing on schedule after
     getting a late start due to initial implementation problems.

 •   Due mainly to initial implementation problems, there was a pipeline of over
     $12 million (as reported in the FY2001 Annual Portfolio Review).

 •   The Mission’s FMFIA review did not disclose material weaknesses in the
     above areas.


The majority of the support is provided through the Literacy Enhancement
Assistance Program (LEAP), which began in 2001. The program’s major
objectives include establishing educational policy support systems and improving
student and teacher literacy and numeracy. Despite delays at the beginning of the
agreement, the primary implementing party, the Educational Development
Consortium, is on track to meet the requirements for the school year beginning in
September 2002. There is strong program and financial oversight from the
USAID staff who are well trained and experienced. The large pipeline for this SO
is getting the needed attention at the Director level and is expected to decrease as
the agreements and contracts mature.



                                                                                     9
                 Function Description                          Risk Exposure
 SO4 – Health and Child Survival: Increase use of                Moderate
 family planning, HIV/AIDS and child survival
 services within a supportive policy environment.
                               Risk Assessment Factors
 •   Programs are led by experienced project and team leaders.

 •   In FY2002 about $37 million is budgeted for health activities, representing
     almost half of the program funding.

 •   HIV/AIDS activities were the subject of a recent OIG audit and several
     weaknesses were disclosed.

 •   Majority of the activities (over $28 million) under this SO are field support
     arrangements with contractual responsibility in Washington – an arrangement
     that concerns the SO4 team.

 •   Over $31 million was in the pipeline as of the FY2000 Annual Portfolio
     Review, but the Mission is conducting quarterly pipeline analysis and the issue
     has the attention of the Mission Director.

 •   The SO team raised concerns about the adequacy of staffing and the need for a
     full-time monitoring and evaluation position.

 •   The Mission had been concerned about the direction of a program by one of the
     Child Survival activity implementing partners; but a new proposal has rectified
     the situation.

 •   The Mission’s FMFIA review did not disclose material weaknesses in this area.


Various SO4 staff voiced their concern over lack of control over field support
activities. There was a strong sentiment against the current field support
arrangements in the Child Survival area. Under these arrangements, there are
inherent difficulties in aligning progress in the program’s activities with financial
controls and payments. The team also had been concerned about an
implementing partner’s Child Survival program. The program’s scope and
direction were not fully consistent with the Mission’s objectives. However, the
situation has been resolved with a new proposal from the partner.

The various weaknesses identified by the recent OIG audit of HIV/AIDS
activities have been well received by the Mission and are being addressed. Due to
the size of the HIV/AIDS program, the team expressed concerns over the



                                                                                   10
adequacy of the staffing, particularly noting that monitoring and evaluation
function was not getting the required attention.



                  Function Description                       Risk Exposure
 Program and Projects Development Office                        Moderate
 (PPDO): - Coordinates the PMP, SO budgets, and
 annual reports, and develops USAID/Nigeria website.
                             Risk Assessment Factors
 • USAID/Nigeria is providing assistance under a transition strategy until
    December 2003.

 •   Although completed and submitted on time, USAID/Nigeria’s PMP is
     considered in transition as the team struggles to refine program result
     indicators through experience and experiments.

 •   Obtaining quality data is a problem for some SO areas and as a consequence,
     indicators have been changed and redefined, baselines reset, and intermediate
     results reassessed.

 •   PPDO and related activities are led by well-qualified U.S. direct hire and
     contract personnel, in cooperation with sophisticated outside consultants and
     researchers.

 •   SO teams are comprised of members from multiple disciplines representing
     all Mission functions.

 •   Mission management demonstrates a commitment to management control.

 •   Nigerian political, civil, and legal institutions are being rebuilt after years of
     military rule characterized by dictatorship and neglect.

 •   There is no bilateral agreement between the U.S. Government and the
     GFRN.

 •   The country is gearing up for a political campaign in anticipation of national
     elections towards a second term of a new civilian democratic government.


USAID/Nigeria is still in a transition stage in the implementation of its strategic
objectives because of various factors, both internal and external to the Mission. The
internal conditions include the Mission's relative newness, after a 15-year hiatus
from Nigeria; its recent relocation to Abuja (Nigeria's new capital) from Lagos; its




                                                                                     11
accounting station being in Accra, Ghana; and the absence of a contract officer until
recently.

External factors include weak or underdeveloped Nigerian institutions that are
unreliable as a source of accurate statistical data for setting baselines and measuring
progress towards intermediate results or achievement of the strategic objectives.
Civil unrest and youth violence, along with conflicts due to land disputes and ethnic
and religious differences are also external factors considered in assessing the risk.

Because of the Mission's newness, partnerships with implementers and cooperating
sponsors are still in the developmental stage. The Mission's Foreign Service
National staff is relatively inexperienced with USAID strategic objectives and its
policies and procedures. Also, not having an in-house contract officer until recently,
along with the remote accounting station and a lack of a bilateral agreement have
combined to create difficulties in developing and implementing programs and
projects.

The external factors related to the transition of the government and the newness of
the Mission also affects data availability, collection and quality. As a result,
readjustments to the PMP have been necessary. The Mission submitted the final
PMP to USAID/Washington in early February 2002, thus meeting the requirements
for the March 2002 reporting cycle. However, Mission personnel view the PMP as a
transitional document that still requires refinement as more experience is gained with
the indicators.




                                                                                     12
                                                               Risk Exposure
                  Function Description
 Executive Office – Manages administrative                        Moderate
 functions such as personnel management, general
 services, and property management.
                               Risk Assessment Factors
 • An experienced personal services contractor serves as the Executive Officer but
     will be replaced by a U.S. direct hire by the end of FY2002.

 •   The Deputy Executive Officer is not available to support Mission requirements.

 •   Operating expenses for the fiscal year ending September 30, 2002 is estimated
     to be $3.9 million with approximately 23 percent allocated for personal services
     contract payments.

 •   The Mission Orders are not complete and are in the process of being developed
     and/or updated.

 •   Progress has been made on the inventory reconciliation using the Barscan
     software, but the Mission could not provide a dollar amount for the
     discrepancies as reported on a previous OIG audit report.

 •   Some residences of Mission personnel do not have the required basic safety
     equipment (smoke detectors and extinguishers) in place.

 •   The Mission’s FMFIA review did not disclose material weaknesses in the
     above areas.


While the office is led by a seasoned personal services contractor, staffing shortages
prevent adequate monitoring of all the Executive Office activities. A new Executive
Officer is expected to arrive by the end of FY2002 and the current contractor will
stay on in FY2003 to support operations. The Deputy Executive Officer position is
currently filled but that person is out of the country due to medical reasons.

The issue with the lack of safety equipment at the residences of Mission personnel
was also raised. An employee’s house, which was destroyed by a fire, did not have
the required basic safety equipment at the time of the fire. Although a private
contractor is responsible for maintenance and ensuring that the safety equipment is
in place, discussions with employees indicated that some housing still lack the
required basic equipment of a fire alarm and extinguisher.

In a previous audit, the OIG recommended that the Mission conduct an inventory of
non-expendable property and to resolve discrepancies accordingly. The Mission is



                                                                                    13
making progress toward meeting this goal and reported that all but 5 percent of the
discrepancies between the physical inventory and their records have been resolved.
The Mission could not provide a dollar value for the 5 percent discrepancy at the
time of the audit, but were in the process of determining the cost basis of the
discrepancies.



                  Function Description                            Risk Exposure
 Controller’s Office – Discharges financial aspects                 Moderate
 of the Mission operations
                                Risk Assessment Factors
 • The staff is qualified and well trained. However, the office is in the process of
     hiring additional financial analysts to provide better program support.

 •   The cashier maintains a large petty cash balance, but the Controller is
     considering reducing the amount required based on current needs.

 •   An unannounced cash count did not reveal any discrepancies, although the
     cashier’s documentation was not organized and readily available.

 •   Implementing agreements and contracts initiated in Washington do not appear
     on the Mission Accounting and Control System (MACS) but are kept in the
     Phoenix financial system in Washington. At the end of each fiscal year, these
     funds are manually added to the figures in MACS for the purpose of pipeline
     analysis.

 •   There is no mechanism to ensure a link between program activities and the
     financial aspects that are controlled from Washington.

 •   For those implementing agreements initiated in Washington, computation of
     accruals is completed quarterly with coordination from the accounting station in
     Accra, Ghana.

 •   Mission Orders are in the process of being developed to address new business
     requirements.


The Mission has a large dollar amount of field support and interagency
agreements that are centrally funded by Washington. HIV/AIDS and Child
Survival activities under SO4 alone have over $28 million in field support
activity. Currently the Controller’s Office does not have a mechanism in place to
link financial payments with program performance. The Controller’s Office is
planning to provide closer financial support to programs by assigning financial
analysts to programs. At that time the Controller’s Office will also be better able



                                                                                   14
             to monitor program activities and better evaluate financial aspects of respective
             programs.

             Currently, a petty cash balance of $100,000 is maintained by the cashier. The
             Controller agreed that the petty cash balance needs to be evaluated since the
             $100,000 amount was based on the requirements during the move to Abuja.
             Analysis of current petty cash requirements is ongoing. According to the
             Controller, a lower level for the petty cash fund will be decided in the near future.



Conclusion
Conclusion   We examined the risk associated with the various aspects of the USAID/Nigeria
             mission. The table below summarizes the findings.

                                                                    Risk Exposure
                             Function                       High       Moderate         Low
              Sustaining the Transition to
              Democratic Civilian Government
                                                              ü
              Economic Reform and Agricultural
                                                                            ü
              Growth
              Education Reform                                              ü
              Health and Child Survival                                     ü
              Program and Projects Development
              Office
                                                                            ü
              Executive Office                                              ü
              Controller’s Office                                           ü
             Overall, the risk exposure associated with USAID/Nigeria is moderate. The
             Mission’s strategy is focused on assisting Nigeria’s transition to economic, social
             and political stability with inherent challenges. The lack of reliable and useful
             data creates difficulty in establishing baseline conditions and determining
             appropriate indicators to measure the impact of the programs. However, the
             strategic objective teams are working to develop these measures. Generally, the
             strategic objective teams are staffed with competent and experienced staff.
             However, some newly hired Foreign Service National staff is less experienced
             with USAID requirements and procedures, and will need training.

             The Mission Director was generally aware of the vulnerabilities we found. We
             suggest that increased oversight be directed towards the contractor responsible for
             residential safety equipment to prevent future property losses, or potential injury
             or loss of life.

             The political and economic conditions in Nigeria affect USAID/Nigeria’s
             vulnerability to risk. The Government of the Federal Republic of Nigeria
             (GFRN) has expressed good political will to undertake the reforms necessary.


                                                                                                 15
However, the legacy of military dictatorships and ineffective government still
lingers. Continuing social unrest and conflict impedes the smooth transition to
democracy, and has a direct impact on the Mission’s ability to succeed in
achieving its objectives.




                                                                                  16
                                                                                     Appendix I


Scope and     Scope
Methodology   The Office of the Regional Inspector General in Dakar conducted this risk
              assessment to gain an understanding of the programs and activities of
              USAID/Nigeria. This was not an audit and does not contain any formal
              recommendations. The risk assessment was conducted at USAID/Nigeria from
              July 8 – 26, 2002 with fieldwork taking place in Abuja, Nigeria.

              Methodology

              To perform this risk assessment, we interviewed USAID/Nigeria personnel and
              examined documentation to obtain an understanding of the Mission’s objectives,
              programs and activities. We assessed selected controls at the Mission and the
              Strategic Objective (SO) team levels to determine if they were adequate and
              working as designed. We also interviewed the personnel of the implementing
              partners for these activities to assess their controls to determine if they were
              adequate. We then concluded on the level of risk (low, moderate, or high) for the
              programs and major functional offices of the Mission. The ultimate assignment
              of a risk level to an SO or functional office was judgmental, taking into
              consideration how sufficiently we believed the SO (including implementing
              partners) or office had met the prescribed regulations, operating guidelines and
              internal control procedures in its program, financial, accounting and
              administrative management. Also impacting the risk level assigned were how
              qualified or experienced we thought program managers and functional personnel
              were and to what extent a SO program might be vulnerable to external factors
              beyond its control.

              The risk assessment focused primarily on fiscal year (FY) 2002 data and, as
              necessary, from previous years. Given the broad scope of the programs and the
              limited review envisioned for such activities, the risk assessment was designed to
              assess the vulnerability within certain focus areas. We did not assess the risk for
              the Special Objective as it did not receive funding for FY2002.

              In summary, the general methodology for the survey included the following:

              a) Reviewed applicable laws, regulations, policies, and guidance.

              b) Met with USAID/Nigeria officials to gain an understanding of the breakdown
                 of responsibilities and monitoring of the programs, and assessed which
                 controls were being used for the various programs.

              c) Performed site visits with implementing partners, and determined if the
                 controls were in place and working as intended for their activities.



                                                                                               17
                                                                          Appendix II

Management
Comments

                     United States Agency for International
                                 Development
                                    Nigeria
                       Metro Plaza
                        rd
                       3 Floor
                       Plot 992, Zakaria Maimalari Street, at MacCauley
                       Central Business District
                       PMB 519, Garki
                       Abuja
                       Tel: 234-9-413-8374/5, 413-8576/7, 234-3048
                       Fax: 234-9-234-2930



MEMORANDUM

To:          Lee Jewell III, RIG/Dakar

From:        Sherry Suggs, Ag. Mission Director, USAID/Nigeria

Date:        November 7, 2002

Subject:     Survey of USAID-Financed Assistance to Nigeria
             (Report No. 7-620-03-00X-S).

On behalf of USAID/Nigeria, I would like to thank you and your team
for conducting the program review of USAID assistance to Nigeria.

The findings of the survey were well received by our mission and will
help to strengthen and improve our management and program controls as
we implement the program and plan our new long-term strategy.

Your report was discussed with the SO team leaders and other members
of our management staff, and the following steps have been or will be
taken to strengthen the identified weaknesses.

Issues:

   1. Staffing – A large scale staff recruitment program is currently
      being implemented to fill staff vacancies. As we move towards



                                                                                    18
  implementing the new strategy, we want to ensure that we have
  the required number and caliber of staff to implement the
  program.

2. Training – We recognize the importance of training and
   retraining programs to update the skills of our staff on basic
   USAID processes and procedures. We will continue to expose our
   staff to both local and US-based training opportunities. In the
   first half of FY03, we identified seven mission-wide training
   opportunities that cut across the professional and non-
   professional cadre of our staff.

3. Staffing Position in the office of our Partner - This situation
   arose as a result of the sudden illness of the Chief of Party of
   International Federation for Electoral System. We would like to
   report by the end of FY02 a suitable replacement was recruited
   and assumed duty.

4. Coordination of Reporting and Contractual Responsibilities
   between our Mission and DC-based activities and reporting
   guidelines on IAAs - We are addressing the
   coordinating/financial reporting processes between the mission
   and the WDC coordinating units that have contractual
   responsibility over some of our activities. We recognize the
   fact that the present reporting arrangements are not adequate
   for control purposes and we hope to record significant
   improvements as we fine-tune the reporting processes.

5. Executive Office:

5.1     Security Office and Residential Premises - Significant
   improvements have been made to physical security at both the
   office and residences. Fire extinguishers and smoke detectors
   have been installed in all the residences. Work on the security
   up grades which started before the end of FY02 will be completed
   by the end of the first quarter FY03.

       During a recent USAID/W/SEC review, several new
  recommendations were made to improve security. These
  recommendations are being acted on.

5.2     Mission Orders - The issuance of Mission Orders is
   progressing. Twenty four (24) Mission Orders were signed and
   circulated as of October 31, 2002. It is hoped that an
   additional 45 mission orders will be issued by the end of second
   quarter FY03.



                                                                     19
  6. Controller’s Office:

  6.1     Cashiering Duties - We note the comments on documentation
     by our cashier. We have commenced the strict adherence to the
     cashiers operating hours that will ensure the cashier has more
     time to balance the books and to eliminate backlog in
     documentation.

  6.2     Staffing – Staff strength has increased with the
     recruitment of a new Financial Analyst.

  7. Program and Project Development:

  7.1.     The peculiar situation of the political development has
     made the refinement of our Performance Monitoring Plans (PMP)
     and program result indicators an ongoing exercise. However, as
     we move from the transition strategy to a long term strategy and
     with the consolidation of democracy in Nigeria, more measurable
     indicators will evolve, especially in the Democracy and
     Governance strategic objective.

USAID/Nigeria will continue to monitor situations that heighten our
risk exposure. We appreciate the support and cooperation of the RIG
Office and wish to assure you that we will do our best to reduce the
risk levels identified in this report.




                                                                       20
